AUDIT OF THE ACCOUNTS PAYABLE OPERATIONS
            IN WASHINGTON, D.C.



             Audit Report No. 00-014
                March 31, 2000




            OFFICE OF AUDITS

      OFFICE OF INSPECTOR GENERAL
                      TABLE OF CONTENTS


BACKGROUND                                          1

OBJECTIVES, SCOPE, AND METHODOLOGY                  3

RESULTS OF AUDIT                                    3

FDIC NEEDS TO COMPLY FULLY WITH REQUIREMENTS        4
OF THE PROMPT PAYMENT ACT

   FDIC Should Not Contact Vendors to Forego        5
   Prompt Payment Interest

   Prompt Payment Interest to Utility Companies     5
   Needs to Be Paid

PROCESSING OF INVOICES NEEDS IMPROVEMENT            6


OTHER MATTERS                                       7


CONCLUSION AND RECOMMENDATIONS                      8


CORPORATION COMMENTS AND OIG EVALUATION             9


APPENDIX I – DIVISION OF FINANCE COMMENTS           10


APPENDIX II – DIVISION OF ADMINISTRATION COMMENTS   11


APPENDIX III – TABLE: MANAGEMENT RESPONSES TO       15
                   RECOMMENDATIONS
Federal Deposit Insurance Corporation                                                      Office of Audits
Washington, D.C. 20434                                                          Office of Inspector General




   DATE:            March 31, 2000

   TO:              Fred Selby, Director
                    Division of Finance

                    Arleas Upton Kea, Director
                    Division of Administration



   FROM:            David H. Loewenstein
                    Assistant Inspector General

   SUBJECT:         Audit of the Accounts Payable Operations in Washington, D.C.


   This report presents the results of the Office of Inspector General’s (OIG) audit of the Federal
   Deposit Insurance Corporation’s (FDIC) accounts payable operations in Washington, D.C. The
   Division of Finance (DOF) disburses all payments for the Corporation through its accounts
   payable operations in Washington, D.C. and Dallas, Texas. The Washington office primarily
   disburses funds for FDIC’s corporate payments and the Dallas office makes receivership-related
   payments. FDIC processed approximately 231,000 transactions amounting to $4.2 billion during
   1998 and approximately 175,000 transactions amounting to $3.1 billion for the period January 1,
   1999 through September 30, 1999. Our review focused on the internal controls over the accounts
   payable process, the appropriateness of the payments, and compliance with laws and regulations
   in Washington, D.C. Overall, internal controls over the accounts payable process are working
   effectively and transactions are being properly processed and paid. However, improvements are
   needed in FDIC’s timeliness in processing of payments and adherence to the Prompt Payment Act
   requirements.


   BACKGROUND

   FDIC disburses funds to vendors, employees, and other government agencies for payment for goods
   and/or services received. Payments are made using the FDIC Accounts Payable Purchase Order
   System (APPO), which is a Walker based software system. The FDIC’s Financial Information
   Management System (FIMS) is built on a suite of commercial-off-the-shelf software licensed by
   Walker Interactive Systems, Inc. FIMS is the central accounting system which includes but is not
   limited to the general ledger, accounts payable, accounts receivable, and the purchase order sub-
   systems. There are several types of invoices processed within the FDIC APPO system. They
   include invoices related to Purchase Orders (PO), Payment Authorization Voucher (PAV), Legal
   Services Invoices (LSI), and recurring transactions. A purchase order is an agreement made
   between FDIC and a vendor for goods and/or services. A PAV is for the disbursement of funds that
do not require a PO. Purchases made without going through DOA’s Acquisition and Corporate
Services Branch (ACSB) require a PAV, prepared by an originating individual department. LSIs are
invoice payments made to FDIC contracted law firms. Recurring payments are invoices paid on a
regular basis such as monthly or quarterly rental or lease payments.

The FDIC makes its payments by wire transfers, on-line payment and collection (OPAC), electronic
fund transfers (EFT), and checks. There are two basic wire transfers processed by the FDIC,
corporate treasury wires and liquidations activity wires. Use of the Wire Authorization Voucher
(WAV) is an integral part of the wire transfer process. OPACs are electronic payments and
collections made between participating government agencies. Payments and collections are
transferred to and from the agency’s treasury account. When the FDIC purchases goods or services
from a participating agency, the agency prepares a bill. The agency transfers the funds from the
FDIC’s account directly into its account, and then submits the bill and invoices to the FDIC. The
Debt Collection Improvement Act of 1996 requires federal agencies including the FDIC to increase
the use of EFTs largely to reduce the cost of processing checks manually. For the fiscal year ending
September 30, 1998, the FDIC paid approximately 55 percent of its vendor payments, excluding
employee salary payments, using EFTs. Forty-five percent were paid by check. In comparison, in
the fiscal year ending September 30, 1999, the FDIC paid approximately 78 percent of its vendor
payments, excluding employee salary payments, using EFTs and 22 percent using checks. The
comparison of fiscal year EFT activity indicates that the FDIC had increased the use of EFTs by
approximately 42 percent. FDIC personnel indicated that the use of EFTs would increase further
over the next several years.

In making payments for services, the FDIC is required to follow the Prompt Payment Act (PPA) and
the policies and procedures outlined in the Office of Management and Budget (OMB) Circular A-
125. The PPA requires payment of an invoice on the date specified in the contract or, if a payment
due date is not specified, 30 days after the start of the payment period. If a payment is not made on
the due date, OMB Circular A-125 states that, “agencies must pay interest penalties automatically,
without contractors having to request them...” The purpose of the federal requirement is to spur
agencies to make payments more timely. It also provides better relationships with contractors,
improved competition for government business, and reduced costs to the government for property
and services.

In April 1999, the Deputy to the Chairman and Chief Operating Officer requested the Office of
Internal Control Management (OICM) to conduct a review of FDIC’s compliance with the PPA.
At the time, our office was conducting an audit of the Accounts Payable Operations in
Washington, D.C. Our audit included a review of the Corporation’s compliance with the
provisions of PPA and other laws. To avoid any duplication of effort, OICM and the OIG agreed
that the OIG would conduct the review of PPA. FDIC reported that it paid PPA interest of
$100,969 in 1997, $53,751 in 1998, and $17,162 from January 1 through September 30, 1999.




                                                 2
OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of the audit were to (1) evaluate internal controls over the accounts payable process;
(2) verify that payments were made correctly, accurately accounted for, and properly supported;
(3) review for duplicate payments; and (4) evaluate compliance with laws and regulations. We
performed an audit of FDIC’s accounts payable process in Washington, D.C. for the period of
January 1, 1998 through September 30, 1999 and tested a sample of transactions processed during
1998. We did not review LSI payments during our audit because the OIG has performed audits in
this area over the past several years.

During our audit, we interviewed FDIC personnel from the Division of Administration (DOA),
Division of Finance (DOF), Legal Division, and Office of Internal Control Management (OICM).
We also contacted the U.S. General Accounting Office (GAO) to discuss its audit of FDIC’s 1998
financial statements. GAO’s audit entailed a review of the Bank Insurance Fund (BIF), Saving
Association Insurance Fund (SAIF), and Federal Savings and Loan Insurance Corporation
Resolution Fund (FRF). Further, we discussed certain aspects of OMB Circular A-125 with
personnel from the OMB. We tested a sample of 131 payments made from the Washington, D.C.
office to verify that payments were correct, properly accounted for, and that no duplicate payments
were made. We generally chose larger dollar amounts from each category of payments. Our sample
included payments from WAVs, OPACs, EFTs, POs, and PAVs. Of the 131 payments, we
reviewed 41 payments to determine compliance with the Prompt Payment Act. We also reviewed 54
vendor files to determine whether the files were properly maintained and updated. We also reviewed
DOA’s contract files for applicable payments. Further, we reviewed DOF’s Signature Verification
System to determine that all approval signatures were correct and proper delegations of authority
existed.

We reviewed two prior OIG audit reports entitled Audit of the Use of Payment Authorization
Vouchers, dated March 31, 1997, and Audit Report on the Accounts Payable Purchase Order
System, dated May 19, 1995. We reviewed these reports to determine that all issues were addressed
and closed. We also reviewed the Chief Financial Officers Act (CFOA) and OMB Circular A-125
to determine FDIC’s compliance with applicable laws. In addition, we discussed Government
Performance Results Act (GPRA) issues with DOF and determined that FDIC has taken steps to
prepare for the necessary reporting requirements related to accounts payable activities that must be
reported in March 2000. Finally, we obtained a legal opinion from FDIC’s Legal Division
concerning applicability of the PPA for utility expenses. We conducted the audit from September
1998 through November 1999 in accordance with generally accepted government auditing standards.


RESULTS OF AUDIT

Generally, internal controls over the accounts payable process are working effectively; however,
the FDIC needs to improve the timeliness of payments and implement additional controls when




                                                  3
an invoice received for payment is incomplete. Our review indicated that payments are properly
processed and paid; however, FDIC personnel did not have original invoices for 4 payments
from our sample of 131. FDIC personnel indicated that these invoices had been misplaced or
lost. Although the original invoices and related support were not available for these four
payments, we do not consider such payments inappropriate based on other information we
reviewed. Also, our review did not identify any duplicate payments. FDIC had adequate
controls in place to prevent duplicate payments. Specifically, the system has built in controls
that produce an error message whenever a duplicate invoice number is inputted into the system.
In addition, FDIC complied with the requirements of GPRA and CFOA. However, because
FDIC did not interpret the requirements of PPA correctly, none of the payments to utility
vendors that were 30 days late included PPA interest, as they should have. FDIC personnel
interpreted OMB Circular A-125 to exempt all utility companies from PPA interest. The OMB
and FDIC’s Legal Division confirmed that utility companies were subject to PPA interest.
Further, we found that FDIC did not pay PPA interest for some other payments that it paid 30
days late. We also noted four instances where FDIC personnel contacted certain vendors when
PPA interest totaled $50 or more and discussed the forfeiture of the interest amount. We were
told this was a common practice. We believe that FDIC is not following the intent of the law
when FDIC personnel contact the vendor to discuss a late payment and the vendor relinquishes
the PPA interest to which it is entitled.


FDIC NEEDS TO COMPLY FULLY WITH REQUIREMENTS OF THE PROMPT
PAYMENT ACT

Although the majority of payments to vendors were timely and accurately computed, the FDIC
needs to comply fully with the requirements of the PPA. The PPA and the implementing guidelines
in OMB Circular A-125 require that federal agencies, including the FDIC, pay their vendors on the
date specified in the contract, or if payment is not specified, 30-days after the start of the payment
period. We found that FDIC did not always pay PPA interest to vendors entitled to such interest.
We noted at least four instances where FDIC personnel contacted certain vendors when PPA
interest totaled $50 or more and discussed the forfeiture of the interest amount. In addition, we
noted in reviewing a random sample of 41 invoices, that the FDIC did not pay two utility companies
approximately $3,600 in PPA interest for 12 invoices submitted. Additionally, FDIC considered a
company that performed maintenance and repairs for telecommunications equipment a utility
company and did not pay PPA interest on three invoices. FDIC personnel interpreted OMB
Circular A-125 to mean that all utility companies were exempt from PPA interest. The
requirements of the PPA were not correctly interpreted and applied by the FDIC; therefore, none of
the payments to utility vendors that were paid 30 days late included PPA interest, as they should
have. As a result of the non-payment of PPA interest for utility companies and other vendors paid
late, the accounting and reporting of such interest in the internal management reports and the
Corporation’s financial statements, although immaterial, was not accurate.




                                                  4
FDIC Should Not Contact Vendors to Forego Prompt Payment Interest

FDIC should not contact a vendor to discuss the payment of PPA interest when FDIC pays an
invoice late. For 4 of 41 invoices involving two vendors, the FDIC contacted the vendors and
discussed the late payment. In these instances, the vendors agreed to accept the amount invoiced
and relinquish PPA interest totaling $465. One invoice totaled $15,300 and FDIC paid it 39 days
late. FDIC should have paid approximately $114 in PPA interest for this late payment. The other
three invoices totaling $26,780, $10,148, and $14,875 involved one vendor. FDIC paid the three
invoices late by 42 days, 36 days, and 36 days, respectively. PPA interest for these three
invoices totaled approximately $351. FDIC personnel stated that they contacted the vendor and
discussed the PPA interest and the vendor agreed to forego the interest. The FDIC agreed that
the payment was late and the vendor was PPA-eligible; nevertheless, FDIC did not pay PPA
interest.

OMB Circular A-125 states that agencies must pay interest penalties automatically, without
contractors having to request them if a payment is made 30 days after the start of the payment
period. The intent of the PPA is to provide for timely payment, better relationships with
contractors, improve competition for government business, and reduce costs to the government for
property and services. We believe that the FDIC is not following the intent of the law when FDIC
personnel contact the vendor to discuss a late payment and the vendor relinquishes the PPA interest
to which it is entitled.

Prompt Payment Interest to Utility Companies Needs to Be Paid

FDIC did not pay PPA interest for late payments involving a utility company. For 12 of 41
invoices selected for review of PPA, FDIC did not pay two vendors approximately $3,600 in
PPA interest. Late payments ranged from a low of 10 days past due to a high of 198 days past
due for the 12 invoices. DOA personnel stated that DOA interpreted the OMB Circular A-125 to
exempt utility companies from the requirements of PPA. Therefore, FDIC did not pay any PPA
interest for any late payments made to a utility company. DOA personnel did not secure a legal
opinion from the FDIC Legal Division when DOA made a conscious decision to exempt utility
expenses from the requirements of the PPA. In addition, DOA considered a company that
performed maintenance and repairs for telecommunications equipment a utility company and did
not pay PPA interest on three invoices. The FDIC Legal Division did opine that the PPA applies
generally to the FDIC in its corporate capacity in September 1996. In this opinion, the Legal
Division addressed the acceptance period, calculation of the interest penalties, and requirements
and responsibilities of the FDIC. However, it did not address applicability of PPA to utility
companies in its opinion.

OMB Circular A-125 Section 2.b. states that, “Where agencies acquire utility services under terms
required by other governmental authorities not subject to the Act (e.g., tariffs) this circular does not
apply. If agencies acquired these services through contracts or other written requests, payment
terms specified would prevail. If there is no contract or the contract is silent about payment terms,
the applicable tariff prevails.” During our review, we requested the FDIC Legal Division to opine




                                                   5
on whether utility companies are exempt from OMB Circular A-125. The Legal Division stated in
its opinion dated November 4, 1999 that the company identified from our sample is a utility
company and entitled to interest on late payments in accordance with the PPA. It also stated that
the PPA itself does not contain any language that exempts utility companies from the requirements
of PPA.

From the remaining sample of 25 of 41 invoices selected for review of PPA, the FDIC paid 10
invoices late and paid PPA interest totaling $3,077. We determined that FDIC paid these
vendors late and FDIC computed PPA interest correctly. Late payments ranged from a low of 4
days to high of 171 days for the 10 invoices. In addition, five invoices were determined to be
PPA exempt. The five invoices were for liquidation-related work. The FDIC is not required to
pay PPA interest for work associated with liquidating assets from closed banks. For six invoices,
PPA interest was less than one dollar. According to the PPA, the FDIC does not pay interest if it
is less than one dollar. Late payments ranged from a low of 1 day to a high of 6 days for these
six invoices. For one invoice, FDIC issued a stop payment for a check issued to but not received
by a contractor. FDIC paid the original payment timely but it was not received by the vendor.
Because FDIC issued a stop payment, FDIC is not required to pay PPA interest. Finally, three
invoices lacked supporting documentation and we were unable to determine whether the
payments were made late and whether PPA should have been paid. The timely processing of
invoices is discussed later in the report.

Based upon the results of our review, the FDIC needs to improve the payment process as it
relates to the PPA. FDIC is not adhering to the intent of the PPA when it contacts vendors to
discuss forfeiture of interest payments. PPA interest should be paid automatically when payment
is made past the 30-day due date and should not be negotiated with vendors. It may be more
costly to the FDIC to contact the vendor, cancel the payment, and issue another check than pay
PPA interest. In addition, the FDIC did not comply with the Prompt Payment Act when it did
not pay PPA interest for utility payments. In order to reduce the expense of PPA interest, FDIC
should pay all invoices within the due date. Emphasis needs to be placed to all responsible
employees that timely processing and payment of invoices is a goal that must be met.

Further, because the FDIC did not pay PPA interest for payments made late to utility companies,
the amount that the FDIC reported internally as PPA interest paid for 1998 is not accurate. FDIC
reported that it paid $53,751 in PPA interest in 1998. This amount was down from $100,969 that
FDIC reported in 1997. In addition, the FDIC paid PPA interest totaling $11,804 from January
through May 1999. DOA personnel informed us that during 1999 FDIC continued to not pay
PPA interest for late payments to utility companies and selectively contacted vendors for other
late payments that involved PPA interest.


PROCESSING OF INVOICES NEEDS IMPROVEMENT

Although internal controls over the accounts payable process are working effectively, the FDIC
needs to improve the timeliness of processing invoices. We found that the FDIC generally




                                                6
reviewed, authorized, and paid the PAVs, EFTs, WAVs, OPACs, and POs in our sample in
accordance with FDIC guidelines and procedures. Invoices and supporting documentation
received were properly date stamped and contained the appropriate delegated authority’s
signature. However, the respective offices and divisions did not review and forward invoices in
a timely manner. From our sample of 41 invoices, FDIC paid PPA interest for 10 late payments.
Late payments ranged from 4 to 171 days for these 10 invoices. Of the 10, 7 were not timely
cleared by the ACSB, the program office did not timely clear 1, and 1 was not timely cleared by
multiple offices. One of the 10 invoices was held for Electronic Fund Transfers pre-note
verification. Although the APPO Manual provides guidelines and specific timeframes for
processing and paying invoices, the FDIC did not always meet the specified timeframes.

In addition, the FDIC needs to implement additional controls when an invoice received for
payment is incomplete. For three invoices, DOA personnel informed us that the invoices
originally submitted lacked supporting documentation or FDIC adjusted the invoice amount. For
one invoice, the original invoice was lost and paid from a copy. The PPA requires that invoices
submitted by a vendor be complete with all supporting documentation such as time sheets or a
breakdown of specific hours spent by the contractor, as required by the contract. If the FDIC
needs additional information, PPA requires that the FDIC review the invoice within 7 days of
original receipt and, if necessary, send it back to the vendor for additional information. If the
invoice is incomplete and FDIC requests additional information from the vendor, the 30 day
payment requirement does not start until FDIC receives a complete invoice. For these three
instances, DOA personnel stated that DOA requested additional information because the invoices
were incomplete. However, there was no documentation indicating that the FDIC had contacted
the vendor for additional information. Because DOA did not document the files as to when the
vendor was contacted and what additional information was requested, we were unable to
determine whether the payments were made late and whether PPA should have been paid. In all
three instances, the FDIC did not pay PPA interest for the payments.


OTHER MATTERS

Our review of the accounts payable process indicated that payments are generally well supported
and paid correctly. However, in our sample of 131 invoices, FDIC did not have original support
for four payments totaling $115,895 to three different vendors. FDIC personnel indicated that
the invoices were either misplaced or lost. We verified that all three vendors that had missing
invoices were approved on FDIC’s vendor file. In addition, we noted that other payments to
these vendors for similar type of transactions made by the FDIC contained all supporting
documentation. The FDIC frequently contracts for the types of work performed by these
vendors, and we believe that services were received in return for payment. The APPO Manual
requires that FDIC maintain appropriate support for all payments, including original invoices.
Although the original invoices and related support were not available for these four payments,
we do not consider such payments inappropriate based on other information we reviewed.
However, we suggest that DOF remind personnel that all payments made from the APPO system
should be adequately supported by documentation and filed accordingly. Documentation
includes an original invoice to verify the amount paid and the name of the payee.



                                               7
In addition, we found that some parts of the APPO Manual need updating. We found that
several sections of the manual do not reflect procedures currently in place. Specifically, the
manual needs updating in areas such as assigning “dummy” check numbers to wire payments,
and indicating that DOF is now responsible for the maintenance of the vendor file. DOF
representatives indicated they are aware of the needed changes and plan to update the manual in
the near future. We suggest that DOF along with DOA update the manual to reflect all new
requirements and procedures. This will ensure that all individuals responsible for processing of
payments for the FDIC are aware of the processes and the controls.

Finally, during our review of wire transfers, we noted that FDIC personnel had assigned
duplicate check numbers to payments made by wire transfer. Although we did not find any
duplicate payments for any wire transfers, the duplicate numbers created confusion when we
reviewed the payment records. We discussed this issue with FDIC personnel, and they
immediately corrected the problem. We suggest that DOF assign distinct numbers to each wire
transfer and ensure that numbers are not duplicated.


CONCLUSION AND RECOMMENDATIONS

Generally, our review of the accounts payable process indicated payments are properly processed
and paid, and overall the process is working effectively. However, improvements can be made
by the FDIC in the areas of timeliness of payments and adherence to the Prompt Payment Act.
Based upon our results, we recommend that the Director of DOA:

(1) Designate all utility companies as PPA eligible on the Accounts Payable system.

(2) Instruct contracting personnel to not contact vendors to forego PPA interest payments when
    payment is made 30 days late and the late payment is the result of FDIC delays.

(3) Instruct DOA personnel to document the file to show what support is missing, the date contact is
    made with the vendor, and an explanation of what support will be provided when an incomplete
    invoice is received for payment. When the additional support is received, responsible personnel
    should note the date the documentation is received to start the payment process for PPA
    requirements.

(4) Reiterate to office and division directors the process and requirements for invoice processing
    and the need for timely payments.




                                                  8
In addition, we recommend that the Director of DOF:

(5) Instruct disbursement personnel to not withhold any payments that include automatically
    computed PPA interest unless the basis for withholding of PPA interest is properly justified,
    documented, and approved. Also, PPA interest paid to utility companies should be included in
    internal management reports and financial records.


CORPORATION COMMENTS AND OIG EVALUATION

On March 6, 2000, the Director, Division of Finance, provided a written response to the one
recommendation addressed to DOF in the draft report. DOF’s response is presented in appendix
I of this report. Also, on March 28, 2000, the Director, Division of Administration, provided a
written response to the four recommendations addressed to DOA in the draft report. DOA’s
response is presented in appendix II of this report.

The Directors of both DOF and DOA each stated that they agreed to all findings and
recommendations presented in the draft report. The Corporation’s responses to the draft report
provided the elements necessary for management decisions on the report’s recommendations.
Therefore, no further response to this report is necessary. Appendix III presents management’s
proposed action on our recommendations and shows that there is a management decision for
each recommendation in this report.




                                                9
                                                                                  ATTACHMENT I
Federal Deposit Insurance Corporation                                                        Office of the Director
801 - 17th Street, NW, Washington, DC 20434                                                  Division of Finance




                                                         March 6, 2000



MEMORANDUM TO:                           David H. Loewenstein, Assistant Inspector General
                                         Office of Inspector General




FROM:                                    Fred S. Selby
                                         Director

SUBJECT:                                 Response to the OIG draft report entitled Audit of Accounts
                                         Payable Operations in Washington, DC


We have completed our review of the referenced draft report. We accept and concur with the
DOF recommendations as presented by the OIG. As with all invoices received from DOA, DOF
will continue to review the documentation received related to the exempting of PPA interest to
make sure that it is properly justified. All PPA interest incurred and paid will be included on an
internal management reports and financial records.

If you have any questions or feel that further clarification is necessary, please let me know.


cc:       Karen Hughes
          Joe Nairn
          Stan Pawlowski




                                                           10
                                                                              ATTACHMENT II
         Federal Deposit Insurance Corporation
          550 17th Street, NW, Washington, DC 20429                                   Division of Administration



DATE:                              March 28, 2000

MEMORANDUM TO:                     David H. Loewenstein
                                   Assistant Inspector General




FROM:                              Arleas Upton Kea
                                   Director, Division of Administration

SUBJECT:                           Management Response to Draft Report entitled Audit of the Accounts
                                   Payable Operations in Washington, D.C.


The Division of Administration’s (DOA) Acquisition and Corporate Services Branch (ACSB) has
completed its evaluation of the Office of Inspector General (OIG) Draft Report entitled “Audit of the
Accounts Payable Operations in Washington, D.C.”

The objectives of this audit were to evaluate internal controls over the accounts payable process and
evaluate whether those controls were adequate to prevent duplicate payments, ensure that payments
were made correctly, and comply with laws and regulations. The draft report makes five
recommendations dealing primarily with observations of contracting practices regarding the Prompt
Payment Act (PPA) and interest penalties. There were no questioned costs.

Our management responses to the recommendations are outlined below. Our analysis and evaluation
addresses only on four of the five findings and recommendations presented in the report. The fifth
finding was addressed to the Division of Finance. Based on our preliminary review, corrective
actions are required for all four recommendations. Exhibit A summarizes the expected completion
dates and the documentation that will confirm completion of the corrective actions.

MANAGEMENT RESPONSE

FINDING #1: Prompt Payment Interest Is Not Being Paid to Utility Companies

RECOMMENDATION: The OIG recommends that the Director, DOA, designate all utility
companies as PPA eligible on the Accounts Payable system.

BACKGROUND: OMB Circular A-125 contained language describing circumstances in which
utility services would not be subject to the Prompt Payment Act. ACSB interpreted that language to
exclude utility companies from PPA requirements, including late payment interest. As a result,
FDIC has not paid PPA interest for any late payments to utility companies, as documented in the
draft audit report. The OMB issued new Prompt Payment regulations (5 CFR Part 1315) in
October 1999 that superceded OMB Circular A-125. Those new regulations make it clear that
utility company contracts are not exempt from penalty interest. The Legal Division subsequently
issued an opinion on this issue, dated November 4, 1999, that states that the PPA does not contain


                                                      11
any language that exempts utility companies from the requirements of the Act; and that those
companies are entitled to interest on late payments in accordance with PPA.

MANAGEMENT RESPONSE: We agree with the finding and recommendation. DOA will issue
immediate verbal instructions to all Acquisition Section personnel, to be followed by a
memorandum, discontinuing the practice that exempts utility companies from PPA penalty interest
payments. For affected contractors, ACSB will remove the ‘PPA exempt’ designation code that
prevents late interest calculations in the Purchase Order System. These actions will be completed by
May 31, 2000.


FINDING #2: Contracting Personnel Contacted Vendors and Negotiated Waiving the
            Payment of PPA Penalty Interest When Invoice Processing Exceeded 30 Days

RECOMMENDATION: The OIG recommends that the Director, DOA, instruct contracting
personnel not to request of vendors that they forego PPA interest payments when FDIC takes more
than 30 days to pay its invoices.

BACKGROUND: The OIG identified four invoices from its sample of 41 invoices for which the
FDIC had requested that the affected contractors forego a total of $465 in PPA penalty interest that was
due to them. Two contractors agreed to do so. When drafting the original legislation, Congress chose
the word “penalty” when referring to the Prompt Payment interest to emphasize the importance to
government managers of paying bills on time. Therefore, the OIG concluded that the interest penalty
was automatic and that any attempt to avoid PPA interest payments was tantamount to circumventing
the spirit of the law.

The practice noted by the OIG was not intended to violate PPA requirements. It evolved over time as
contracting personnel attempted to work with small vendors to expedite the invoice process after invoice
errors or omissions had been detected. In such cases, contracting personnel continued to work with the
vendor to obtain the required information, rather than rejecting the invoice and restarting the 30-day
clock upon receipt of a correct invoice. If processing time exceeded 30 days in such instances, they
requested that the vendor waive entitlement to the PPA interest.

MANAGEMENT RESPONSE: We agree with the finding and recommendation. DOA will
discontinue the practice of negotiating PPA interest payments. In the future, all late interest penalties
calculated under PPA will be paid to vendors.


FINDING #3: ACSB Is Not Adequately Documenting Interruptions in the 30-Day Payment
Period

RECOMMENDATION: The OIG recommends that the Director, DOA, instruct DOA personnel
on the handling of incomplete vendor invoices, to include: documenting in the contract file (a)
missing vendor support, (b) dates of contacts with the vendor regarding missing support, and (c) what
additional information is necessary to satisfy the omission. When the additional support is received,
responsible personnel should note the date the additional support was received, complete the invoice,
and restart the 30-day payment process for PPA requirements.




                                                   12
BACKGROUND: The OIG identified three invoices from its sample of 41 invoices on which PPA
interest had not been paid where contract personnel had noted that the invoices were incomplete and
more information had been requested. At the time additional information was requested, the PPA 30-
day payment period clock should have been stopped until the FDIC received a complete invoice from
the vendor. However, the contract file lacked sufficient documentation to determine whether the
PPA payment period had been properly interrupted or if PPA penalty interest should have been paid.

MANAGEMENT RESPONSE: Management agrees with the finding and will take the following
corrective actions. DOA will issue instructions to contracting personnel by May 15, 2000, to reject
and return to the vendor any incomplete invoice that is not capable of being corrected and paid within
30 days; and to appropriately document the contract file. The start time for vendor invoices under
PPA will begin upon receipt of a correct and valid invoice. DOA will also include in contracting
documents more descriptive information regarding the mandatory elements that are required to be
submitted with invoices. This will be implemented with the publication of the revised Acquisition
Policy Manual that will be released by March 31, 2000.


FINDING #4: FDIC Is Not Processing Invoice Payments Timely

RECOMMENDATIONS: The OIG recommends that the Director, DOA, reiterate to office and
division directors the process and requirements for invoice processing and the need for timely
payments.

BACKGROUND: The OIG identified 10 invoices from its sample of 41 invoices that were not paid
in 30 days, as required under PPA, which resulted in the FDIC having to pay penalty interest.

MANAGEMENT RESPONSE: We agree with the finding and recommendation. DOA will re-
emphasize to all division and office points of contact the importance of timely invoice review,
approval, and payment. In addition, a review of the OIG's analysis indicated that, although delays
occurred at several office locations, most were in the DOA Acquisition Section. Accordingly, DOA
will also place more emphasis on monitoring by the contracting officer to ensure that invoices are
processed within the DOA Acquisition Section within allowed timeframes. These actions will be
completed by May 31, 2000.


If you have any questions concerning the management responses, please contact Andrew Nickle,
Audit Liaison for the Division of Administration, at (202) 942-3190.


cc:    Mike Rubino
       Deborah Reilly
       Dave McDermott
       Mary Rann
       Andrew Nickle
       Rodney Cartwright
       Tom Harris
       Richard Johnson
       Alan Oleartchick



                                                 13
                                                          EXHIBIT A

                                                     DIVISION OF ADMINISTRATION
                                                  SUMMARY OF MANAGEMENT DECISION
                                                                                                                     EXPECTED         DOCUMENT
             FINDING                QUESTIONED    DISALLOWED                                                        COMPLETION        VERIFYING
NO.        DESCRIPTION                 COST         AMOUNT      DESCRIPTION OF CORRECTIVE ACTION                       DATE          COMPLETION
 1    ACSB incorrectly                      -0-           -0-   Management agreed with the finding and              May 31, 2000     Memorandum
      interpreted the Prompt                                    recommendation.                                                        to the
      Payment Act to exclude                                                                                                          Contract
      the interest due to utility                               The designation for any contractor not eligible                         Staff
      companies for late                                        for PPA will be changed to permit calculation
      payments.                                                 and payment of interest for late payments. That
                                                                change will include all utility companies.
 2    Contracting personnel                 -0-           -0-   Management agreed with the finding and              May 31, 2000     Memorandum
      were improperly                                           recommendation.                                                        To the
      negotiating with                                                                                                                Contract
      contractors to obtain                                     ACSB will ensure that all PPA interest due is                           Staff
      waivers of PPA interest                                   paid, and that there will be no negotiations with
      due for late payment of                                   contractors regarding payment of penalty
      invoices.                                                 interest.
 3    ACSB is not                           -0-           -0-   Management agrees with the finding and will         May 15, 2000      Memorandum
      documenting the                                           take the following corrective action.               March 31, 2000       To the
      interruption of the 30-                                                                                                           Contract
      day PPA clock when the                                    ACSB will issue instructions to all contract                              Staff
      contractor submits                                        personnel to reject and return to vendor any                         And issuance of
      incomplete invoices.                                      incomplete invoice and to appropriately                                   APM
                                                                document the contract file. DOA will also
                                                                include in contracting documents more
                                                                descriptive information regarding the
                                                                mandatory elements that will be required to be
                                                                submitted with invoices.
 4    Invoices are not being                -0-           -0-   Management agreed with the finding and              May 31, 2000        DOA
      processed within 30 days                                  recommendation.                                                      Memorandum
      to avoid payment of PPA
      interest penalties.                                       DOA will re-emphasize to all division and
                                                                office points of contact the importance of a
                                                                timely invoice review process.



                                                                     14
                                                                                                                               APPENDIX III

                                        MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its
semiannual reports to the Congress. To consider FDIC’s responses as management decisions in accordance with the act and related guidance,
several conditions are necessary. First, the response must describe for each recommendation

§ the specific corrective actions already taken, if applicable;
§ corrective actions to be taken together with the expected completion dates for their implementation; and
§ documentation that will confirm completion of corrective actions.
If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons
for any disagreement. In the case of questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.

Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation
confirming completion of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions.
The information for management decisions is based on management’s written response to our report.




                                                                       15
                                                                                                         Documentation
                                                                                             Expected      That Will                   Management
 Rec.                                                                                       Completion   Confirm Final      Monetary   Decision: Yes
Number                   Corrective Action: Taken or Planned/Status                            Date         Action          Benefits      or No
         The Director, DOA, stated that DOA would issue immediate verbal instructions
         to all Acquisition Section personnel, to be followed by a memorandum,                           Memorandum
         discontinuing the practice that exempts utility companies from PPA penalty                      and removal of
  1                                                                                         05/31/2000                        N/A          Yes
         interest payments. The Acquisition and Corporate Services Branch (ACSB) will                      designation
         also remove the “PPA exempt” designation code that prevents late interest                            code.
         calculations in the Purchase Order System.
         The Director, DOA, stated that DOA would discontinue the practice of
                                                                                                           Director’s
  2      negotiating PPA interest payments. In the future, all late interest penalties      05/31/2000                        N/A          Yes
                                                                                                           Response
         calculated under PPA will be paid to vendors.
         The Director, DOA, stated that DOA will issue instructions to contracting
         personnel by May 15, 2000 to reject and return to the vendor any incomplete
         invoice that is not capable of being corrected and paid within 30 days; and to
         appropriately document the contract file. The start time for vendor invoices                         Issued
  3      under PPA will begin upon receipt of a correct and valid invoice. DOA will also    05/15/2000   instructions and     N/A          Yes
         include in contracting documents more descriptive information regarding the                      revised APM
         mandatory elements that are required to be submitted with invoices. This will be
         implemented with the publication of the revised Acquisition Policy Manual that
         will be released by March 31, 2000.
         The Director, DOA, stated that DOA will reemphasize to all division and office
         points of contact the importance of timely review, approval, and payment. DOA
  4      will also place more emphasis on monitoring by the contracting officer to ensure   05/31/2000   Memorandum           N/A          Yes
         that invoices are processed within the DOA Acquisition Section within allowed
         timeframes.
                                                                                                            Internal
         The Director, DOF, stated that DOF will continue to review the documentation
                                                                                                          Management
         received related to the exempting of PPA interest and ensure that it is properly                                                  Yes
  5                                                                                          03/31/00     Reports and         N/A
         justified. In addition, DOF will include all PPA interest on internal management
                                                                                                           Financial
         reports and financial records.
                                                                                                           Records




                                                                            16
